;

20 - G>5 26

L

]
Supreme Court
of the United States
X

Petition for a Rehearing

Gerald Aranoff,
Petitioner

-against-

Susan Aranoff,
Respondent

:

;
1

X
i

State of Israel
Tel-Aviv

SS:
i

Gerald Aranoff, being duly sworn, deposes and says:

/

\

Gerald Aranoff
8 Miriam Haneviah Street
Bnei Brak 51583 Israel
Phone 972-523-602370
Email: garanoff@netvision.net.il

;
■;

[

;
j—

Contents
1

Statement of the Case

1

2 Reasons for Granting the Petition

3

3 Conclusion

4

4 Appendix

5

!
i

i

i

'

i
!
I—

!

L

Question Presented
The question presented:

S

j

Can an elderly citizen of the USA living in Israel, pro se. appeal to the United States
Supreme Court to overturn a NYS court order QDRO that pays 55% of his pension to
his ex-wife with no end in sight?

:

i
!
i

i

:

:
*
;
*

List of Parties
All parties appear in the caption of the case on the cover page.
Susan Aranoff, Respondent
498 East 18 Street, Brooklyn, NY 11226 USA
phones: 718-284-2093 917-671-7274
email: susanaranoff@gmail.com;

0
Gerald Aranoff, Petitioner
8 Miriam Haneviah Street
Bnei Brak 51583 Israel
Phone 972-523-602370
Email: garanoff@netvision.net.il

;
)

1

!

;

1

1

Statement of the Case

t:

1. I request permission to make this petition. I'm acting pro se. I request the Court
to accept my papers without notarization since, in Israel a US citizen can only get
court acceptable notarizations from the US embassy by appointment, and none are
available now. I request the Court to accept my papers on size A4 paper and not
letter size since in Israel it’s hard to obtain letter size paper. I request the Court
to accept one copy from me since it’s difficult for me to prepare 10 copies. My
dear wife, Yemima,, is retired from her employment as a clerk at Bank Mizrachi.
We were married May 9, 1993, after I divorced Susan February 17, 1993. We are
blessed with 3 daughters: Hadassah, Tamar, and Sapphire Rivka. Each has a USA
social security number. I ask the court to allow me to report only my income and
assets, as Yemima’s income and assets are not large and not relevant.
I
2. I seek from the Supreme Court of the United States:

■!

For a decision that NYS courts have no more control over the QDRO that tells
TIAA to pay Susan 55% of my pension with no end in sight in violation of ERISA.

:
3. The Rules of the Court state: “Review on a writ of certiorari is not a matter of
right, but of judicial discretion. A petition for a writ of certiorari will be granted
only for compelling reasons.” I’m asking the court to accept my petition on the
grounds of fraud/forgery/etc. Time limits on filing cases based on fraud/forgery etc
are extremely long. Often the police and court officials show no interest in evidence
of crimes of fraud/forgery. An aggrieved party may have to be patient over many
years, as I am, for overwhelming evidence to emerge of crimes fraud/forgerv. See
http://uswhistleblower.org/documents/The%20Worst%20Family%20Court%20Judges
%20in%20New%20York%20State%20in%202018.pdf
“24. Eric Prus (Kings County Supreme Court). Arrogant and obnoxious
to litigants, Prus regularly fails to enforce stipulations entered into by the
litigants in his own court. In one case, Prus had the father arrested in the
courtroom and entered an order of protection where he could not even
see his two daughters. In another case, he refused all applications by the
father even though he was the custodial parent. He then jailed the father
for failing to follow an oral order and caused his savings to be placed
into escrow for many years - ruining him in the process. His conduct
is unbecoming of a judge: he recently yelled at a lawyer regarding a

t

2

i
1

statement of net worth; screamed at a father about paying money; and
bawled at a mother about visits. This conduct is in violation of judicial
canon. Section 100.3 (B)(3) ( “A judge shall be patient., dignified and
courteous to litigants, jurors, witnesses, lawyers and others with whom
the judge deals in an official capacity”). To top it all off, he regularly
falls asleep during hearings.”
4. I thank God that I:ni in Israel where Judge Eric I. Prus cannot do to me as he did,
e.g. “In another case, he refused all applications by the father even though he was
the custodial parent. He then jailed the father for failing to follow an oral order
and caused his savings to be placed into escrow for many years - ruining him in
the process.”
5. The late disgraced Judge Gerald Garson fined me $5,000 on December 12, 2001.
On November 14, 2001 Susan didn’t show up for a hearing and called in and asked
for a month's delay. On December 12, 2001 Gerald Garson threw Ian Anderson,
my long time lawyer, out of the room and made him afraid to represent me and

i

fined me $5,000—all for no good reason. Judge Michael Ambrosio ruled, years
later after evidence emerged of the crimes of Gerald Garson, for no good reason,

?

that I must pay all $25,000 fines against me before he’ll allow a re-opening of my
case!
6. Overt glaring acts of forgery, lies, and judicial fraud are so manifest in my papers
whether or not I have an appealable paper is a red herring. Appendix C Email
between Gerald Aranoff and Secretary to Judge Eric I. Prus and Appendix D
Letter from NYS Court of Appeals May 11, 2020 and Appendix E Letter from
NYS Court of Appeals June 10, 2020 make clear that the NYS Court of Appeals
Mo. No. 2020-352 is not based on an appealable paper but on fraud. Susan won
the house and my pension based on fraud.
7. In NYS civil court proceedings judges can threaten and intimidate me, a husband
and father, and also TIAA who administers pensions. It s so difficult for husbands
and fathers and for TIAA to fight unethical judges. What’s to prevent unethical
judges from sanctioning and taking away assets, unfairly, men the judges views as
against feminism or whatever or don’t pay bribes?

i

3

2

i
L

Reasons for Granting the Petition

The trial and jail sentence of the late .Judge Gerald Garson was just the tip of the
iceberg of fraud etc in NYS civil courts. The Court granting me niy petition will
help root out fraud in NYS civil courts.

!

I
s
i

!
!
i

j

!
4

3

Conclusion

The petition for a writ of certiorari should be granted.

Cl
Gerald Aranoff
8 Miriam Haneviah Street
Bnei Brak 51583 Israel
Phone 972-523-602370
Email: garanoff@netvision.net.il
Sworn this 14th day of March 2021.

i
i

\

